No. 20-A-________
___________________________
IN THE SUPREME COURT OF THE UNITED STATES
___________________________
CAROL WILDING, et al.,
Petitioners,
v.
DNC SERVICES CORPORATION and DEBORAH WASSERMAN SCHULTZ,
Respondents.
___________________________
APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A WRIT OF
CERTIORARI
___________________________
Jared H. Beck, Esq.
Elizabeth Lee Beck, Esq.
Victor Arca, Esq.
Beck & Lee Trial Lawyers
12485 SW 137th Avenue, Suite 205
Miami, FL 33186
Tel: (305) 234-2060
Fax: (786) 664-3334
jared@beckandlee.com
elizabeth@beckandlee.com
victor@beckandlee.com

Cullin O’Brien, Esq.
Counsel of Record
Cullin O’Brien Law, P.A.
6541 NE 21st Way
Ft. Lauderdale, FL 33308
Tel: (561) 676-6370
Fax: (561) 320-0285
cullin@cullinobrienlaw.com
Antonino G. Hernandez, Esq.
Antonino G. Hernandez, P.A.
4 SE 1st Street, 2nd Floor
Miami, FL 33131
Tel: (305) 282-3698
Fax: (786) 513-7748
hern8491@bellsouth.net

Counsel for Petitioners

1

TO THE HONORABLE CLARENCE THOMAS, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE
ELEVENTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22, and 30, Petitioners1 respectfully request a 60day extension of time, up to and including March 27, 2020, to file a petition for a writ of
certiorari to the United States Court of Appeals for the Eleventh Circuit to review that court’s
decision in Wilding v. DNC Services Corp., 941 F.3d 1116 (11th Cir. 2019) (attached as Exhibit
A). The jurisdiction of this Court will be invoked under 28 U.S.C. § 1254(1), and the time to file
a petition for a writ of certiorari will expire without an extension on January 27, 2020. This

1

Petitioners are the following named plaintiffs in the case below: Carol Wilding, Stanley
Rifken, Sharon Crawford, William Scott Franz, David Pulaski, Mary Jasmine Welch, Jose
Alberto Gonzalez, Jane Ellen Plattner, Kim Marie Houle, Timothy Bingen, Susan Reed, Angela
Monson, Aimee R. Coleman, Elesha Snyder, Matthew Shaw, Zachary James Haney, Estrella
Gonzalez, Catherine G. Cyko, Laura Genna, Marianne Blair, Tamara L. Johnston, Valerie Elyse
Rasch, Brett Teegardin, Daniel O’meara, Peggy Lew, Daniel J. Reynolds, Brenda Lee Smith,
Marlowe St. Cloud Primack, Patricia D. Cassidy, Brittany R. Musick, Harris Bierhoff, Felicia
Michelle Taylor, Kyle G. Braund, Lauren Hale, William Crandall, Kirsten Hurst, Duffy Robert
Weiss, Connie Anderson, Gregory Witkowski, Elizabeth Figueroa, Brandy Kincaid, Kimberly
Alberts, Rachel Roderick, Laura Michelle Vaughn, Lisa Gale, Tammy Deitch-Coulter, Kayite
Ashcraft, Alecia R. Davis, Dominic Ronzani, Luke Grim, Rosalie Consiglio, Edwin Lugo,
Heather Dade, Michael S. Reed, Rhiannon Crandall, Ryan Ghan, Lisa Settle, Yalonda Dye
Cooper, Daniel S. Cooper, Matthew Joseph Brady, Andrew Rousseau, Susan Catterall, Julie
Hampton, Chris Bubb, Erik Furreboe, Zeke Shaw, Benjamin Ilarraza, Lucille Grooms, Christine
Maiurano, Lewis L. Humiston, IV, John Lynch, James Simon, Lester John Bates, III, Jeffrey
Goldberg, Rick Washik, Richard Booker, Karlie Cole, Erich Sparks, Prabu Gopalakrishnan,
Carlos Villamar, Carolyn Jacobson, Dan Ellis Dudley, Lisa Anne Meneely, D.J. Buschini,
Raymond D. Maxwell, David L. Meuli, Kenneth E. Puckett, David N. Pyles, Cynthia T. Chan,
Stefanie Birdsong, Amber Rae Knowlton, Timo A. Johann, Jeff Rogers, Heather Jordan, Rana
Kangaskent, Susan Frisbie, Bakh Inamov, Theda Larson-Wright, Kirsten Hoffman, Anthony
Grudin, Bruce Busto, Suzanne M. Cork, Emma L. Young, Sean Lynch, Sherry Davis, Nancy
Berners-Lee, Phyllis Criddle, Melissa Liang, Joseph Gleason, Greta Mickey, Diane Emily
Dreyfus, Kathleen L. Dodge, Catherine Willott, Tristan Burgener, Erik Michael Ferragut,
Vincent Cauchi, Joseph Callan, Mark Bedard, Barbara Bowen, Steve Philipp, Susan Phillips,
Richard J. Boylan, Teri Monaco, Tukoi Jarrett, Annmarie Wilson, Andrew Orrino, Craig Currier,
Jarath Hemphill, George Thomas, Rebecca White-Hayes, Alaina Talboy, Sarah Lopez, Eliza
Feero, Rebecca Hohm, Gayle A. Harrod, Erika Sitzer, Stephen Houseknecht, Diane Robinson,
Jen Betterley, Amalie Duvall, John Crowe, Carl Miller, Susan Roppel, Diana Flores, Julianna
Seymour, Melissa Marcotte, Alette Prichett, and Torsha Childs.
2

application is timely because it has been filed more than ten days prior to the date on which the
time for filing the petition is to expire.
1.

This case contains issues of exceptional importance to the integrity of the United

States’ democratic political institutions. It presents the question of whether the Democratic
National Committee (“DNC”), a not-for-profit corporation charged with general responsibility
for the affairs of one of the two major American political parties, has a legally binding, fiduciary
duty to follow its own charter and maintain impartiality and evenhandedness as among the
presidential candidates and campaigns during the Democratic Party presidential nominating
process. Below, the Eleventh Circuit rejected the existence of such a duty, placing it in conflict
with the Second Circuit. See U.S. v. Halloran, 821 F.3d 321, 339-40 (2d Cir. 2016); U.S. v.
Margiotta, 688 F.2d 108, 124 (2d Cir. 1982).
2.

In addition, the case will present the question of whether the petitioners were

improperly denied an opportunity to amend their complaint to state actionable claims against the
DNC and its chair based on evidence the DNC and its leadership worked behind the scenes to
advance Hillary Clinton’s 2016 presidential campaign through the Democratic Party nominating
process. Because the Eleventh Circuit’s order affirming dismissal of the complaint relied on lack
of subject-matter jurisdiction grounds, the petitioners, who are 148 registered Democrats and
donors to the Bernie Sanders campaign and DNC in 2016, will also seek leave to amend their
allegations under 28 U.S.C. § 1653 as part of their certiorari petition. See Moinar v. Nat’l
Broadcasting Co., 231 F.2d 684, 686 & n.2 (9th Cir. 1956) (section 1653 permits amendment of
complaint in the Supreme Court).
3.

Given the large quantity of petitioners and the fact they are dispersed throughout

the country, preparing the petition (including amending each petitioner’s allegations as to

3

subject-matter jurisdiction) will take substantial coordination. The time available for such
coordination has already been considerably shortened by last month’s holiday season.
Accordingly, the petitioners respectfully request that an order be entered extending the
time to file a petition for writ of certiorari for 60 days, up to and including March 27, 2020.
DATED: January 16, 2020
Respectfully submitted,
/s/ Cullin O’Brien
CULLIN O’BRIEN
Counsel of Record for Petitioners
Supreme Court Bar No. 275829
Florida Bar No. 597341
CULLIN O’BRIEN LAW, P.A.
6541 NE 21st Way
Ft. Lauderdale, FL 33308
Tel: (561) 676-6370
Fax: (561) 320-0285
cullin@cullinobrienlaw.com
JARED H. BECK
Florida Bar No. 20695
ELIZABETH LEE BECK
Florida Bar No. 20697
VICTOR ARCA
Florida Bar No. 1014225
BECK & LEE TRIAL LAWYERS
Corporate Park at Kendall
12485 SW 137th Ave., Suite 205
Miami, FL 33186
Tel: (305) 234-2060
Fax: (786) 664-3334
jared@beckandlee.com
elizabeth@beckandlee.com
victor@beckandlee.com
[additional counsel on following page]

4

ANTONINO G. HERNANDEZ
Florida Bar No. 164828
ANTONINO G. HERNANDEZ, P.A.
4 SE 1st St. 2nd Floor
Miami, FL 33131
Tel: (305) 282-3698
Fax: (786) 513-7748
hern8491@bellsouth.net

5

